Nos. 19-267 & 19-348

 

 

IN THE

Supreme Court of the Hnited States

Our LADY OF GUADALUPE SCHOOL,
Petitioner,
Vv.

AGNES MoRRISSEY-BERRU,
Respondent.

ST. JAMES SCHOOL,
Petitioner,
v.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,
Respondent.

On Writs of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
BRIEF OF AMICUS CURIAE UNITED STATES

CONFERENCE OF CATHOLIC BISHOPS
SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,904 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 10, 2020.

0 dag
Colin Casey Hogan

Wilson-Epes Printing Co., Inc.
